Supreme Court, U.S.
FILED

APR 0 1 2021
No. 20-6835

OFFICE, OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

OTHA S. HAMILTON,
Petitioner,
v.
DENNIS REAGLE,
Respondent,
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES SUPREME COURT

PETITION FOR REHEARING

OTHA S. HAMILTON
Petitioner /pro se
DOC # 217667
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001

TABLE OF CONTENTS
Table of contents
Table of Authorities

ii

Petition for Rehearing

1

Statement of Facts

.1

Reason for meriting Rehearing
Suggestions in Support of Rehearing

3
.5

Conclusion

8

Certificate of Service

•8

Certificate of Good Faith

9

Appendix

Order Denying Certiorari
Opinion of the Seventh Circuit Court of Appeals

A

TABLE OF AUTHORITIES
Anderson v. Johnson, 338 F.3d 382, 393 (5th Cir. 2003)

.6

Brown v. Sternes, 304 F.3d 677, 691 (7th Cir. 2002)

4

Bryant v. Scott, 28 F.3d 1411, 1415 (5th Cir. 1994)

6

Houston v. Lack, 487 U.S. 266, 270-72 (1988)

8

Kimmelman v. Morrison, 477 U.S.365 (1986)

.4

Narcisse v. US.A., No.97-0267 section: El (U.S. Dist1998, Lexis 7408

..2

Nealy v. Cabana, 764 F.2d 1173, 1177 (5th Cir. 1985)

.5
3, 4, 5, 6, 7

Strickland v. Washington, 466 U.S. 668 (1984)
U.S. v. Garner, 507 F.3d 399, 407 (6th Cir. 2007)

5

United States v. Hayes, 236 F.3d 891, 896 (7th Cir 2001)

4
.3, 6

Williams (Terry) Taylor, 529 U.S. 362 (2000)
Wilson v. Groze, 800 F. Supp 2d 949 (U.S. Dist. Lexis 84337, 2011)

.2, 4

RULES

28 U.S.C. § 2254

3

F.R.A.P. Rules 4(a)(1)(A) and 4(c)(1)

8

Fed. Evid. Rule 16(b)(2)(B)

•

Fed. R. Civ. P. 5(b)(2)(C)

.8

Supreme Court Rule 44

.1

ii

PETITION FOR REHEARING AND SUGGESTIONS IN SUPPORT
COMES NOW petitioner, Otha S. Hamilton, Pro se, praying, and respectfully requests
ri to

this court to grant rehearing pursuant to Rule 44, and thereafter, grant him a Writ of Certiora

n
review the opinion of the Seventh Circuit Court of Appeals. In Support of Petition, Mr. Hamilto
states the following:

STATEMENT OF FACTS
Eleven years ago, Mr. Hamilton was a service technician and small business owner,
serving his community in the heating and cooling (HVAC) industry for residential and small
businesses. He was a strong provider for his family, wife, children, grandchildren, lodge, and
friends. His step- granddaughter's allegation of child molest greatly set back his effort as a

free

provider. Four days prior to trial in his initial interview, Mr. Hamilton was visited by his trial
Mr.

attorney, Benjamin Jaffe, who informed him that trial would be starting the following week.

ter

Hamilton informed counsel that he had read the affidavit and noticed that his step-granddaugh
had made an allegation that could not have been true, or factual, and that he would be able

to

refute that allegation if counsel would help him obtain his medical records as evidence. This
vital, because the State's witness in chief, testified to what she had encountered, which was
erect penis. Mr. Hamilton is not capable of having an erection. Trial counsel stated that he

was

an

would

return the next day, but failed to do so. Four days later trial commenced without any
. The

investigations into Mr. Hamilton's medical evidence, or his inability to achieve an erection

ble
state's witnesses testified that Mr. Hamilton's penis was pointing straight, which is impossi

1

because of a surgical procedure for ischemic priapism that Mr. Hamilton had prior to knowing
the witnesses.
Priapism is a condition in which a penis remains erect for hours in the absence of
stimulation or after stimulation have ended. There are three types: ischemic (low to no-flow),
non-ischemic (high-flow), and recurrent ischemic (intermittent). Because ischemic priapism,
which is most severe and requires surgery, it causes the blood to remain in the penis for
unusually long periods of time, the blood becomes deprived of oxygen, causing damage to the
penile tissue in which the results ends with permanent impotence. See Wilson v. Groze, 800 F.
Supp. 2d 949 (U.S. Dist. Lexis 84337, 2011) (Surgery for priapism leading to impotence, also see
foot note 1 describing priapism).
The penis contains three columns of erectile tissue, and engorgement of this erectile
tissue with blood causes the penis to enlarge and become firm, a process called erection. Two of
the erectile columns form the dorsum and sides of the penis and are called the corpora cavernosa.
The third columns, the corpus spongiosum, form the ventral portion of the penis and it expands
to form a cap, the glands penis, over the distal end of the penis. The corpora cavernosa which is
the portion of the penis that fills with blood and is responsible for erection becomes scared after
surgery leading to impotence. See Narcisse v. U.S.A., No.97-0267 section: El (U.S. Dist1998,
Lexis 7408) (Scarring of the corpora cavernosa tissue after surgery leading to impotency).
Trial counsel refused to investigate the only plausible defense that would have refuted
the State's evidence that was alleged in identifying Mr. Hamilton as the assaulter of his stepgranddaughter. A trial was held and Mr. Hamilton was convicted and sentenced to serve a
maximum sentence of fifty years executed, for a single count of child molestation.

2

Mr. Hamilton's conviction was affirmed on direct appeal, but Justice Brown dissented.
The Indiana Supreme Court affirmed Mr. Hamilton's conviction, but revised his sentence
downward from 50 years to 35 years executed. State post-conviction proceedings were filed;
relief was denied in the motion court. The Indiana Supreme Court denied transfer. Mr. Hamilton
filed a habeas corpus action under 28 U.S.C. § 2254. The District Court denied both Mr.
Hamilton's Petition under 28 U.S.C. § 2254, and application for a certificate of appealability.
The Seventh Circuit affirmed the district court's opinion, finding no substantial showing of the
denial of a constitutional right. Accordingly, Mr. Hamilton's request for a certificate of
appealability, and motion to proceed in forma paupers was also denied. Finally, Mr. Hamilton
pleads with this Honorable Court not to turn a blind eye to justice, but to reconsider the facts in
his case, and look to clearly established case law in making its final determination. There is only
two questions that need to be determined. Whether Mr. Hamilton's trial counsel had an
obligation to investigate the only plausible defense available, and whether the State of Indiana
could have proved its case if the omitted evidence was presented to a jury. The fact that Mr.
Hamilton's step-granddaughter encountered a penis that was erect, disqualified him as her
assaulter.

REASONS MERTING REHEARING
The Seventh Circuit's order finding no substantial showing of the denial of a
constitutional right, and denying Mr. Hamilton relief is in conflict with Strickland v.
Washington, 466 U.S. 668 (1984); and Williams (Terry) Taylor, 529 U.S. 362 (2000)
emphasizing that in determining Strickland Prejudice, the court must examine both the trial
testimony and the post-conviction evidence to determine whether, had the omitted evidence been

3

presented, there is a reasonable probability of a different outcome, in that the court merely
examined the opinion of the Indiana Court of Appeals which stated the facts in the light most
favorable to the jury's verdict and all contrary evidence ignored. For example, the state court's
opinion states, "T.M.'s testimony alone is sufficient to sustain Mr. Hamilton's conviction." The
court completely ignored the fact that a physical impossibility of the state's witnesses' testimony
can provide an exception to that rule as an alibi. When a jury is prohibited from hearing such
factual information it cannot be said that any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt.
The court further ignored the fact that while the evidence most favorable to the State of
Indiana in convicting Mr. Hamilton is T.M.'s testimony, the court also held in United States v.
Hayes, 236 F.3d 891, 896 (7th Cir 2001), that if it would have been physically impossible for the
witness to observe what she described, or it was impossible under the laws of nature for those
events to have occurred at all, the jury's verdict could be overturned because the testimony
would be incredible as a matter of law.
After Mr. Hamilton's surgery for ischemic priapism, it is physically impossible for T.M. to
have seen what she testified to. Mr. Hamilton did not have the ability, nor was he capable of such
an erection. See Wilson v. Groze, 800 F. Supp 2d 949 (U.S. Dist. Lexis 84337, 2011) (Surgery for
priapism leading to impotence).
The court's order is in conflict with Kimmelman v. Morrison, 477 U.S.365 (1986) (quoting
Strickland 466 U.S. at 690). The duty to investigate is a basic function for trial counsel "to make
the adversarial testing process work in the particular case, Id at 384. When an attorney receives
information from his client that will bolster his defense, he has a duty to make reasonable

4

investigations or to make a reasonable decision that makes particular investigations unnecessary.
Id. Also see Brown v. Sternes, 304 F.3d 677, 691 (7th Cir. 2002) (same)
In the solitary interview between Mr. Hamilton and his attorney, just four days prior to the
trial, counsel was made aware of Mr. Hamilton's surgical procedure that would have brought the
State's witnesses' testimony into question. At that point, Mr. Hamilton believed that it was
reasonable to have counsel help him in this particular defense as it was the only actual evidence
to the allegations against him, but trial counsel opted to stipulate for the State's witness
testimony, in lieu of an independent investigation. There was no obligation to share such
information until such information became physical evidence. See Fed. Evid. Rule 16(b)(2)(B)
(Information not subject to disclosure; Rule 16 does not allow the prosecutor to discover
statements made to an attorney by his client). Relying only on the State's one-sided investigation
as a defense can hardly be considered sufficient and adequate representation. See U.S. v. Garner,
507 F.3d 399, 407 (6th Cir. 2007), rev (ineffective assistance of counsel for relying only on
state's investigation.)

SUGGESTIONS IN SUPPORT OF REHEARING
The Seventh Circuit Court of Appeals order, finding no substantial showing of the denial
of a constitutional right, and affirming that Mr. Hamilton did not prove that the evidence at trial
was insufficient for a conviction, and that he could not have overcome the presumption that the
decision by trial counsel not to investigate, or provide professional testimony was trial strategy,
resulted in both an unreasonable determination of the facts in light of the evidence presented, and
an unreasonable application of Strickland v. Washington, 466 U.S. 668 (1984). Mr. Hamilton
asserts that trial counsel's failure to investigate his medical condition was unreasonable, and not

5

part of a calculated strategy. The evidence in the record shows that Mr. Hamilton informed
counsel of his medical condition and the ramifications of such, at his first initial interview prior
to trial, which meets the first prong of Strickland.
As in Anderson v. Johnson, 338 F.3d 382, 393 (5th Cir. 2003); "[T]here is no evidence
that the decision by counsel to forego an investigation was reasoned at all, and it is, in our
opinion, far from reasonable. Counsel's failure to investigate was not part of a calculated trial
strategy, but was likely the result of either indolence or incompetence.
The court stated in Bryant v. Scott, 28 F 3d 1411, 1415 (5th Cir. 1994), "An attorney
must engage in a reasonable amount of pretrial investigation and at a minimum... Interview
potential witnesses and ... make independent investigations of the facts and circumstances in the
case." (Quoting Nealy v. Cabana, 764 F.2d 1173, 1177 (5th Cir. 1985). Because counsel failed to
provide any investigation, Mr. Hamilton has met the "performance prong" of the Strickland v.
Washington, 466 U.S. 668 (1984) test. Under the circumstances here, trial counsel had an
obligation to show a strategy supporting Mr. Hamilton's inability to have the type of erection
alleged by the state's witnesses. The severe post-surgical complications for ischemic priapism as
outlined in Mr. Hamilton's brief could have easily been obtained by internet at the least, so that
the jury would have had refutable evidence, contrary to the state, leading to reasonable doubt.
The court also held that Mr. Hamilton had not demonstrated prejudice from counsel's
failure to investigation, in that he did not show what the investigation would have proved. This
conclusion is likewise an unreasonable interpretation of Strickland and its progeny. Williams
(Terry) Taylor, 529 U.S. 362 (2000), emphasizes that in determining Strickland prejudice, the
court must examine both the trial testimony and the PCR evidence to determine whether, had the
omitted evidence been presented, there is a reasonable probability of a different outcome.

6

When the specifics of a fact are known it sheds light on the reality of what is happening ,
because surgery for ischemic priapism damages the two main muscles for creating an erection,
the possibility of a penis standing straight or pointed upward, or outward, which was the State's
witnesses' testimony, is a physical impossibility . If a jury does not have the specific facts then
any contrary testimony will suffice. Here, trial counsel knew in advance that an important issue
concerned his client deeply; the very least that he could have done was research the surgical
procedure so that he could have made a cogent argument when the issue was made at trial.
Because trial counsel failed to investigate the minimum, and stipulated for the state's witness, for
corroborating testimony to the fact that Mr. Hamilton had such a surgery, did nothing to support
the factual evidence that would have refuted all the state's witnesses testimony in regards to Mr.
Hamilton's physical impossibility . Counsel's lack of any possible investigation prejudiced Mr.
Hamilton in that there was factual evidence that was contrary to trial testimony and he clearly is
responsible for that evidence not being presented to the jury at trial.
Mr. Hamilton has also meets the prejudice prong of Strickland test.
Mr. Hamilton never made any admissions to the police. The closest thing to any evidence
connecting him to the crime was the uncorroborated testimony of the state's witnesses, in which
the omitted factual evidence of Mr. Hamilton's surgical procedure would have refuted. Had the
jury heard the omitted evidence, along with professional testimony, there is a reasonable
probability that there would have been a different outcome. The Court's order denying Mr.
Hamilton a Writ of Certiorari urgently needs to be reconsidered.

7

CONCLUSION
For the foregoing reasons, Mr. Otha S. Hamilton CRAVE this Court to grant rehearing of
its judgment entered on March 8, 2021, and issue a Writ of Certiorari to hold the Seventh Circuit
Court of Appeals accountable for failing to properly apply the laws of this Court and grant Mr.
Hamilton relief. Mr. Hamilton further prays for any other and further relief which this Court may
deem just and proper under the circumstances.
Respectfully submitted,

Otha Hamilton #217667
Petitioner/ Pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001

CERTIFICATE OF SERVICE
I, the undersigned, Otha S. Hamilton, hereby certify that on March 30th, 2021, I served a

true and correct copy of the foregoing Petition For Rehearing With Suggestions In Support upon
Office of Indiana Attorney General, 302 W. Washington St., I.G.C.S., 5th Fl., Indianapolis, Indiana,
46204-2770, with sufficient first-class postage affixed, by submitting same to correctional staff for
placement in the U.S. Mail, which constitutes filing under the prison "mailbox rule". Houston v.
Lack, 487 U.S. 266, 270-72 (1988).

e26t4 e-W0A.
Otha Hamilton #217667
Petitioner / Pro se
Pendleton Correctional Facility
4490 W. Reformatory Road
Pendleton, Indiana. 46064-9001

No. 20-6835
IN THE SUPREME COURT OF THE UNITED STATES
OTHA S. HAMILTON,
Petitioner,
V.
DENNIS REAGLE,
Respondent,
CERTIFICATE OF GOOD FAITH
COMES NOW Petitioner, Otha S. Hamilton, and makes certification that his petition for
rehearing is presented to this Court in good faith pursuant to Rule 44. Mr. Hamilton further states
the following:
This Court entered its judgment denying Mr. Hamilton a Writ of Certiorari on March 8,
2021. Mr. Hamilton believes that he presents this Court with adequate grounds to justify the
granting of a rehearing in this case and said petition is brought in good faith and not for delay.
Furthermore, Mr. Hamilton believes that based upon the law of this Court and the facts of this
case, he is entitled to relief which has been unjustly denied to him. He further believes that a
great number of people will be denied their constitutional right to due process if the Seventh
Circuit Court of Appeals is allowed to continue to ignore evidence and apply the Strickland
standard ineffectively.
I personally declare under the penalty of perjury that the foregoing is true and correct.
Executed on this 30th_day of March, 2021.

9

